D-2009-083                       May 28, 2009




Logistics Support Contracting for the United States
           Special Operations Command
Additional Information
The Department of Defense Office of the Deputy Inspector General for Auditing, Acquisition,
and Contract Management prepared this report. If you have questions, contact the signer of the
report.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ADA                          Antideficiency Act
COR                          Contracting Officer’s Representative
DFARS                        Defense Federal Acquisition Regulation Supplement
FAR                          Federal Acquisition Regulation
FMR                          Financial Management Regulation
IG                           Inspector General
QASP                         Quality Assurance Surveillance Plan
RDT&E                        Research, Development, Test, and Evaluation
SOFSA                        Special Operations Forces Support Activity
TAPO                         Technology Applications Program Office
U.S.C                        United States Code
USSOCOM                      United States Special Operations Command
                                    INSP ECTOR G ENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DAIVE
                                ARLINGTON , VIRGINIA 22202-4704




                                                                                         May 28,2009

MEMORAN DUM FOR COMMANDER, UN ITED STATES SPECIAL OPERATIONS
                  COMMA ND
                COMPTROLLER, UN ITED STATES SPECIAL OPERATIONS
                  COMMAND
                DIRECTOR, SPECIAL OPERATIONS FORCES SUPPORT
                  ACTIVITY

SUBJECT: Logistics Support for the United States Spec ial Operations Command (Report
         No. D-2009-083)


We arc providing this rcp0l1 for review and comment. We considered management comments
on a draft of this report when preparing the final report .

DoD Direct ive 7650.3 requires that all recommendations be resolved promptly. The U.S.
Special Operations Command comments were partia lly responsive. We revised draft
Recommendation A.I . and Finding 8. We request that the Commander, U.S. Special Operations
Command provide additional com ments on Recommendation A.I , and the Director, Special
Operations Forces Support Activity provide additiona l comments on Recommendations B.2.a.
and B.2.b. We request the additional comments by July 27, 2009 .

Please provide comments that confonn to the requirements of DoD Directive 7650.3. If
possible, send you r comments in electroni c fonnat (Adobe Acrobat fi le only) 10
auda cm@dodig.m il. Copics of your comments must have the actual signature of the authorizing
official fo r your organi zation . We arc unab le to accept the I Signed I symbol in place of the
actual signature . Jf you arrange to send class ified comments electronicall y, you must send them
over the SEC RET Intemet Protocol Router Network (S IPRN ET).

We appreciate the courtesies ex tended to the staff. Please direct questions   10   me at (703)
604-907 1 (DSN 664-9071.



                                              Deputy Assistant Inspector General
                                              Acquisition and Contract Management
Report No. D-2009-083 (Project No. D2008-D000AS-0248.000)                           May 28, 2009


               Results in Brief: Logistics Support for the
               United States Special Operations Command

What We Did                                              What We Recommend
The overall objective was to determine whether           The Commander, USSOCOM
logistics support contracts were properly                x issue service contracts only after the
managed and administered by the United States               Requiring Activity Officials identify a COR
Special Operations Command (USSOCOM).                       in compliance with COR guidance.
Specifically, we reviewed 46 task order files for        x evaluate the SOFSA Business Management
quality assurance controls.                                 Division and the Special Operations and
                                                            Logistics Center to determine what positions
What We Found                                               need to be Government positions due to
                                                            their inherently governmental functions or
The Special Operations Forces Support Activity
                                                            lower cost.
(SOFSA) contracting officers did not develop
and implement a Quality Assurance
                                                         The Director, SOFSA
Surveillance Plan (QASP) or designate properly
trained Contracting Officer’s Representatives            x create and implement QASPs and designate
(CORs) for 44 service task orders valued at                 properly trained CORs for all future task
more than $514 million. This is approximately               orders and open task orders scheduled for
30 percent of the overall $1.74 billion obligated           completion after July 31, 2009.
as of July 2008 for the two contracts. The               x develop internal controls and standard
SOFSA Contracting Office did designate a COR                operating procedures to ensure that SOFSA
for the overall contracts; however, it is not               contractors and customer contractors do not
feasible for one individual to effectively oversee          perform inherently governmental functions.
2,148 task orders requiring surveillance in 20
locations.                                               We also recommend that the Comptroller,
                                                         USSOCOM report to the DoD Office of the
SOFSA allowed contractor employees to                    Inspector General the results of his investigation
perform inherently governmental functions for            to determine whether an Antideficiency Act
task orders valued at approximately $82 million.         violation occurred.

The United States Army Special Operations                Management Comments and
Command, Technology Applications Program                 Our Responses
Office incorrectly funded at least one task order        The Director, Center for Special Operations
with $63.6 million in procurement funds rather           Acquisition and Logistics, responding for
than research, development, test, and evaluation         USSOCOM, partially agreed with audit
funds.                                                   Findings A and B, and disagreed with
                                                         Finding C. The Director agreed with most of
SOFSA internal controls were not adequate.               the recommendations. We revised
We identified material internal control                  Recommendation A.1., and changed Finding B.
weaknesses in the SOFSA contracts we                     We request that the Commander, USSOCOM;
reviewed.                                                the Comptroller, USSOCOM; and the Director,
                                                         SOFSA to provide comments on the final report.
                                                         See the recommendation table on page ii.

                                                     i
Report No. D-2009-083 (Project No. D2008-D000AS-0248.000)             May 28, 2009


Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Commander, United States         A.1.                       B.1.a. and B.1.b.
Special Operations Command
Comptroller, United States                                  C.1. and C.2.
Special Operations Command
Director, Special Operations     B.2.a. and B.2.b.          A.2.a. and A.2.b.
Forces Support Activity

Please provide comments by July 27, 2009.




                                            ii
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                           1
       Background                                                           1
       Review of Internal Controls                                          2

Finding A. Special Operations Forces Support Activity Contract Oversight    3

       Management Comments on the Finding and Our Response                  6
       Recommendations, Management Comments, and Our Response               7

Finding B. Contractors Performing Inherently Governmental Functions         9

       Management Comments on the Finding and Our Response                 12
       Recommendations, Management Comments, and Our Response              13

Finding C. Potential Antideficiency Act Violation                          17

       Management Comments on the Finding and Our Response                 20
       Recommendations, Management Comments, and Our Response              20

Appendices

       A. Scope and Methodology                                            22
             Prior Coverage                                                23
       B. Other Matters of Interest                                        24
       C. DoD Section 324 Guidance                                         26

Management Comments

       Center for Special Operations Acquisitions and Logistics            37
Introduction
Objectives
The overall objective was to determine whether logistics support contracts
USZA22-03-C-0056 and USZA22-03-D-0006 were properly managed and administered
by the United States Special Operations Command (USSOCOM). Specifically, we
reviewed 46 task order files for quality assurance controls.

Background
This audit was a follow-on to DoD IG Report No. D-2007-100, “Contract for Logistics
Support Services for Special Operations Forces,” May 18, 2007. We reviewed the same
two contracts (USZA22-C-03-0056 and USZA22-D-03-0006) that were discussed in
DoD IG Report No. D-2007-100. DoD IG Report No. D-2007-100 contained three
findings.

   x   Finding A: Financial and contracting officials at the Special Operations Forces
       Support Activity (SOFSA) did not comply with Federal appropriations law and
       the DoD Regulation 7000.14-R, “DoD Financial Management Regulation
       (FMR).”
   x   Finding B: The officials who determine fees at USSOCOM increased the award
       fees without adequate written justification.
   x   Finding C: SOFSA contract files did not contain Determinations and Findings
       documents or support agreements for Economy Act orders received through
       Military Interdepartmental Purchase Requests from requesting organizations for
       the contracts.

Findings A and C of Report No. D-2007-100 do not coincide with the scope and
objectives of our audit. However, Finding B of Report No. D-2007-100 deals with the
improper administration of the contract and, therefore, applies to our audit. USSOCOM
concurred with Finding B, which required the fee-determining officials to fully explain
and document their rationale for issuing an award fee greater than the Award Fee
Evaluation Board deemed appropriate.

U.S. Special Operations Command
The USSOCOM is a combatant command at MacDill Air Force Base in Tampa, Florida.
USSOCOM is responsible for planning, synchronizing, and executing global operations
against terrorist networks and provides organization, training, and equipment for special
operations.

Special Operations Forces Support Activity
SOFSA is a Government-owned and contractor-operated facility in Bluegrass Station,
Lexington, Kentucky. Its primary mission is to provide logistics support services to
Special Operations Forces worldwide. SOFSA supports USSOCOM and other DoD



                                            1
Components by providing logistics support including repair, maintenance management,
and life cycle sustainment support.

SOFSA Contracts
In 2003, USSOCOM awarded two indefinite-delivery, indefinite-quantity contracts,
USZA22-03-C-0056 and USZA22-03-D-0006 (SOFSA contracts), for logistics support
services to L3 Communications Integrated Systems with a ceiling price of $2.1 billion.
Both contracts had the same scope of work and period of performance and share the
$2.1 billion ceiling. The SOFSA contracting division administers the two contracts as
one. The contracts allow for cost-plus-award-fee and firm-fixed-price type task orders.

As of July 2008, SOFSA has awarded 2,148 task orders from these two contracts
obligating approximately $1.7 billion of the $2.1 billion ceiling. Specifically, SOFSA
has awarded:

   x   1,014 task orders on the USZA22-03-C-0056 contract valued at approximately
       $735 million and

   x   1,134 task orders on the USZA22-03-D-0006 contract valued at approximately
       $1.0 billion.

We judgmentally selected 46 task orders, with a total value of approximately
$522 million, which is 30 percent of the overall $1.74 billion obligated for the two
contracts. Of the 46 task orders selected for review, we identified 44 as services task
orders and 2 as product task orders.

Review of Internal Controls
We identified material internal control weaknesses in the SOFSA contracts under
evaluation as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. Specifically, SOFSA did not implement Quality
Assurance Surveillance Plans (QASP) or designate CORs for service task orders, allowed
contractors to perform inherently governmental duties, and potentially violated the
Antideficiency Act by using the wrong type of appropriation. DoD Instruction 5010.40
states that internal controls are the organization, policies, and procedures that help
program and financial managers achieve results and safeguard the integrity of their
programs. The report findings explain the materiality of the weaknesses and provide
recommendations for improvement. Specifically, we recommend that SOFSA create and
implement a quality assurance surveillance plan and properly designate and train
contracting officer’s representatives. In addition, we recommend that the Commander,
USSOCOM determine what positions need to be Government positions and that SOFSA
develop internal controls and standard operating procedures to ensure compliance with
regulations on inherently governmental functions. We also recommend the Comptroller,
USSOCOM conduct a review of the potential Antideficiency Act violation. We will
provide a copy of this report to senior USSOCOM officials responsible for the internal
controls at SOFSA.



                                             2
Finding A. Special Operations Forces
Support Activity Contract Oversight
SOFSA contracting officers did not provide adequate contract oversight for 44 service
task orders, valued at $514 million, awarded under the SOFSA contracts as required by
the Federal Acquisition Regulation (FAR) and DoD guidance. This occurred because the
contracting officer did not develop and implement Quality Assurance Surveillance Plans
(QASPs) for, or assign Government employee Contracting Officer’s Representatives
(CORs) to, any of the 44 service task orders. Instead, the contracting officer relied on the
customer to determine whether the Government obtained the quality and quantity of
products and services for which it contracted. As a result, warfighters may not be
receiving the quality and quantity for more than $514 million in products and services for
which they contracted.

Quality Assurance Surveillance Plan
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that the QASP is a
document that allows the Government to determine whether the supplies and services
provided by the contractor conform to contract requirements. The Government may
either prepare the QASP or require the offerors to submit a proposed QASP for the
Government’s consideration. The QASP identifies all the work requiring surveillance
and how the surveillance will be performed. In addition, FAR 46.103, “Contracting
Office Responsibilities,” states that the contracting office is responsible for receiving the
details of inspection, testing, and other contract quality requirements to ensure the
integrity of the supplies or services. Defense Federal Acquisition Regulation
Supplement (DFARS) 246.102, “Policy,” requires the development and management of a
systematic, cost-effective Government quality assurance program to ensure that
contractor performance is in accordance with service contract requirements.
DFARS 246.102 also requires that products be designed, developed, purchased,
produced, stored, distributed, operated, maintained, or disposed of by contractors in
accordance with the contract.

We asked the SOFSA chief contracting officer, who is also the Director of the Business
Management Division, if the contracting office created or approved QASPs for the
44 service task orders. These 44 task orders are valued at $514. The chief contracting
officer stated that SOFSA did not create QASPs for the task orders. She explained that
they rely on:

   x   customer surveys,
   x   monthly SOFSA Business Management Division meetings held to review
       customer complaints, and
   x   quality deficiency reports that the customer submits.

However, this approach did not result in consistent quality assurance by the contracting
officer. As a result, the contracting office did not always identify and correct quality
issues.

                                              3
For example, task order 2310, valued at more than $37 million, contained a quality
deficiency report in which the customer identified paint chipping and flaking on six
MH-47G helicopters. The contractor admitted that the problem with the paint on five of
the aircraft stemmed from poor preparation prior to painting. These aircraft needed to be
repainted and, therefore, reduced the warfighter’s ability to support military operations as
scheduled. In addition, the contractor charged the Government approximately
$225,000 to repaint the aircraft. While this example does show that the customer
identified an issue with the quality of the service provided, the lack of timely and
consistent contract oversight resulted in additional work that may have prolonged the
delivery of these helicopters to the warfighter and increased the cost to the Government.
The contracting officer may have avoided the additional time and funds needed to repaint
the aircraft had there been a well-defined QASP and the appropriate Government
oversight.

Since our site visit in August 2008, the chief contracting officer has created a QASP
template that will be tailored to create all current and future task-order specific QASPs.
According to the chief contracting officer, the draft template is still awaiting approval
from the Director of SOFSA.

Contracting Officer’s Representatives
DFARS Procedures, Guidance and Information 201.602, “Contracting Officers,” states
that for service contract actions, contracting officers will designate a properly trained
COR in writing before contract performance begins. A COR can assist the contracting
officer in the technical monitoring and administration of a contract, though they may not
change the terms and conditions of the contract. In addition, a COR must be a
Government employee, qualified by training and experience, and designated in writing.
In an August 22, 2008, memorandum from the Deputy Secretary of Defense, the Deputy
Secretary stated that CORs are used to ensure that contractors comply with all contract
requirements and that COR activities would be tailored to the dollar value and
complexity of the contract. Both SOFSA contracts contain clauses that direct SOFSA to
designate CORs for service task orders.

The former SOFSA chief contracting officer officially designated a member of the
SOFSA Business Management Division as the COR for all 2,148 task orders (as of
July 2008) issued from the SOFSA contracts. In addition, SOFSA provides support to
20 locations around the world. One individual is not capable of conducting proper and
timely surveillance for 2,148 separate task orders that are executed in 20 different
locations around the world. In addition, during a meeting with the COR, he stated that he
does not perform any COR duties. The current chief contracting officer stated that prior
SOFSA management designated a COR only to meet the requirements of the DFARS.
Because both contracts are for services, SOFSA contracting officers should have
designated properly trained CORs for service task orders before task order performance
began. The chief contracting officer has recently begun training and designating CORs
and technical representatives in order to remedy the current situation and ensure that each
task order issued from the SOFSA contracts receives proper, consistent, and timely
oversight.

                                             4
The chief contracting officer stated that the customers accomplished some quality
assurance functions through feedback they submit to the contracting office. However,
DoD regulations and guidance do not state that customer feedback is a proper way to
satisfy COR responsibilities. A properly designated and trained COR provides timely
oversight and support to the contracting officer by providing information on contractor
performance without the potential unintended bias of the customer.

During our review of task order 7763, we identified that the contractor had improperly
installed a thrust nut lock ring on a C-130 aircraft. The Government customer on the task
order discovered the mistake, but only after a test caused damage, which cost the
Government approximately $219,000 to fix. The additional cost occurred because the
aircraft was operationally tested with the thrust nut lock ring installed improperly, and the
repair manual required that several different parts be replaced due to the incident. If the
contracting officer had designated a COR to this task order, the mistake could have been
discovered prior to the testing, which would have relieved the Government of about
$204,0001 in additional expense. A more somber effect of the improperly installed thrust
nut lock ring and the associated parts could have been further damage to the aircraft or
loss of life.

Summary of Contract Oversight
The chief contracting officer has recently trained and designated at least two CORs and
two technical representatives for the SOFSA contracts who will help ensure that quality
assurance measures are implemented and enforced on current and future task orders.
However, there is no evidence that these individuals have been assigned to specific task
orders. As a result, the 2,148 task orders (as of July 2008), including the 44 we reviewed
valued at $514 million, issued under the SOFSA contracts still lack the proper and timely
oversight required by Federal and DoD regulations. Until the contracting officer ensures
that there is consistent and appropriate COR oversight for all task orders, the contractors
may not be fully complying with the cost, schedule, and performance requirements of
their contracts.

Follow-On Contract Award
The chief contracting officer stated that USSOCOM awarded a follow-on contract in
March 2009. The chief contracting officer stated that the follow on contract is under
protest and as a result, SOFSA extended the current contract to October 2009 and
increased the ceiling price by $200 million. She stated that the follow-on contract is an
indefinite-delivery, indefinite-quantity contract that will have a period of performance
spanning 10 years and a $5 billion ceiling. The chief contracting officer further stated
that in addition to designating CORs and implementing QASPs for the current SOFSA
contracts, she would be doing the same for the follow-on contract.


1
  The difference between the Government cost to fix the aircraft and the actual expenses represents $15,000
paid by the contractor to the Government because of the contractor’s mistake. The contractor also
conducted a Six Sigma review to reduce the time aircraft stay in inspection and to provide the findings,
recommendations, and estimated benefits to the Air Force Special Operations Command and SOFSA.

                                                    5
Management Comments on the Finding and Our
Response
Management Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for
USSOCOM, stated that USSOCOM officials partially agreed with Finding A. The
Director stated that USSOCOM officials agree that contract oversight for SOFSA off-site
projects should greatly improve by adopting the policy to direct future customers to
designate a Government employee as a COR.

However, the Director further stated that USSOCOM officials do not agree that
contracting officers did not provide adequate contract oversight. He stated that
contracting personnel performed monitoring at the contract level, not the task-order level.
The Director stated that SOFSA assigned project officers to task orders who prepared
bi-weekly reports that included a review of concerns. The Director stated that two of the
project officers were appointed as CORs, one for aviation and one for non-aviation. The
Director indicated that contractor performance data was available through the Customer
Query System maintained by the prime contractor, which allowed Government staff to
communicate concerns. He also stated that SOFSA staff reviewed the prime contractor’s
monthly metrics to determine whether the Government received the products and services
for which the Government had contracted. The Director indicated that the Award Fee
Board process facilitated the corrective action SOFSA staff would take if contractual
performance was deemed inadequate.

Our Response
We disagree with the Director, Center for Special Operations Acquisition and Logistics
comments. Our review of the SOFSA task order files revealed that not all task order files
contain the bi-weekly reports mentioned by the Director. Some of the files did contain
bi-weekly reports but the reports were not prepared on a bi-weekly basis. Further,
briefing slides attached to those bi-weekly reports contained information provided by the
contractor. Likewise, SOFSA’s personnel based their review of the contractors monthly
metrics on data from the contractor’s Customer Query System. Relying so heavily on
contractor provided information, without independent corroboration of the data, for most
of the contract oversight creates a conflict of interest. In addition, the documentation
used by SOFSA emphasizes customer complaints and concerns. The Award Fee Board
system used customer feedback, independent of the contractor, to inform the award fee
official’s decision regarding the amount of award fee to pay the contractor. However, we
could be spending too much for services and the customer might still be happy that they
are getting what they want. This approach does not measure or monitor the efficiency of
the contractor’s performance.

Although the project officers conducted some oversight, they were not designated CORs
and the task order files did not show evidence of COR duties performed, nor did they
contain a COR file. Although the Director stated that SOFSA appointed two CORs,
SOFSA personnel only discussed one COR with the audit team. However, two CORs
would still be insufficient to monitor every task order SOFSA issued under the overall

                                            6
contracts. Finally, each task order is a contract and should have the proper oversight
necessary, including a QASP and COR.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we revised draft Recommendation A.1. to clarify
the nature of the action needed to improve existing contract oversight.

A.1. We recommend that the Commander, USSOCOM issue service contracts or
task orders only after the Requiring Activity Official identifies an individual to
perform COR duties who fully complies with the COR guidance.

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Commander, USSOCOM, disagreed. The Director stated that existing DoD policies
specifically cover the appointment of a COR. The existing policies include a Director,
Defense Procurement and Acquisition Policy Memorandum; a Deputy Secretary of
Defense Memorandum; the Defense Federal Acquisition Regulation Supplement Subpart
201.602-2; and Procedures, Guidance, and Information 201.302-2. The Director, also
explained that USSOCOM anticipates issuing additional guidance after the DoD Panel on
Contracting Integrity issues the COR Handbook. He stated that USSOCOM has
published guidelines on CORs in the Desktop Contracting Guide. The Desktop
Contracting Guide states that the requiring activity official nominates a COR and the
contracting officer approves the nominee. The Desktop Contracting Guide also states
that the Letter of Designation for a COR or a similar format should be used to document
the appointment of CORs.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
partially responsive. We agree that the DoD policies adequately describe why and when
to appoint a COR; however, USSOCOM contracting and acquisition personnel did not
follow this guidance. We revised Recommendation A.1. to more clearly specify what is
needed. The Commander, USSOCOM needs to emphasize the importance of CORs, and
USSOCOM customers must be aware that the Commander, USSOCOM will hold them
accountable for complying with this guidance. We request that the Commander,
USSOCOM provide his plan of action and milestones to implement revised
Recommendation A.1. in response to the final report.

A.2. We recommend that the Director, Special Operations Forces Support Activity:

       a. Create and implement Quality Assurance Surveillance Plans in accordance
with the Federal Acquisition Regulation Subpart 46.4, “Government Contract
Quality Assurance,” Subpart 46.103, “Contracting Office Responsibilities,” and the

                                             7
Defense Federal Acquisition Regulation Supplement 246.102, “Policy,” for all future
task orders for contracts USZA22-03-C-0056 and USZA22-03-D-0006 and any open
task orders scheduled for completion after July 31, 2009.2

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Director, SOFSA, agreed. He stated that SOFSA has a Performance Management Plan
that satisfies the intent of the recommendation.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
responsive.

       b. Properly designate and train Contracting Officer’s Representatives in
accordance with the Defense Federal Acquisition Regulation Supplement 201.602,
“Contracting Officer,” and Deputy Secretary of Defense Memorandum
August 22, 2008, for all future task orders for contracts USZA22-03-C-0056 and
USZA22-03-D-0006 and any open task orders scheduled for completion after July
31, 2009.

Director, Center Special Operations Acquisition and Logistics
Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Director, SOFSA, agreed. He stated that SOFSA has provided training through the
Defense Acquisition University and required staff to complete COR certification classes.
The Director also stated that USSOCOM is addressing COR training as a part of the
USSOCOM Directorate of Procurement 2009 training offered throughout USSOCOM.
The Director stated that SOFSA contracting officers are advising customers to nominate
personnel for COR training for all future task orders. The Director stated that SOFSA
will complete this action by June 1, 2009.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
responsive.




2
  This date was chosen to exclude those open task orders with little work remaining while still including
those open task orders with significant work remaining.

                                                     8
Finding B. Contractors Performing
Inherently Governmental Functions
SOFSA management allowed contractors working for the SOFSA Business Management
Division to perform inherently governmental functions. In addition, SOFSA contracting
personnel took direction and implemented contract changes from contractors working for
their customers. Further, SOFSA management and contracting personnel allowed
contractors to administer task orders, determine what supplies or services the
Government required, and approve contractual documents. Finally, the contractors
performing inherently governmental functions did not identify themselves as contractors.
These conditions occurred because SOFSA lacks internal controls and standard operating
procedures on the performance of inherently governmental functions. As a result,
SOFSA may not have correctly administered and protected the best interests of the
Government for approximately $82 million in task orders issued under the SOFSA
contracts.

FAR Criteria
FAR 2.101, “Definitions,” defines an inherently governmental function as a function that
is so intimately related to the public interest as to mandate performance by Government
employees. These functions include activities that require either discretion in applying
Government authority or judgment in making decisions for the Government.
Additionally these functions involve interpreting and executing the laws of the United
States so as to bind it to take or not take some action by contract, policy, regulation,
authorization, order, or otherwise.

FAR 7.503, “Inherently Governmental Functions Policy,” provides examples of
inherently governmental functions including:
   x   determining what supplies or services are required by the Government;
   x   approving any contractual documents to include documents defining
       requirements, incentive plans, and evaluation criteria;
   x   administering contracts, which includes ordering changes in contract performance
       or contract quantities, taking action based on evaluations of contractor
       performance, and accepting or rejecting contractor products or service;
   x   determining whether contracts are reasonable, allocable, and allowable; and
   x   directing and controlling Federal employees.

FAR 37.114, “Special Acquisition Requirements,” states that contractors working in
situations where their contractor status is not obvious to third parties are required to
identify themselves as contractors. This avoids creating an impression in the minds of
members of the public or Congress that they are Government officials, unless, in the
judgment of the agency, no harm can come from failing to identify themselves. Agencies
must ensure that all contractor personnel attending meetings, answering Government
telephones, and working in other situations where their contractor status is not obvious
must identify themselves.


                                           9
SOFSA Business Management Division Contractors
The SOFSA Business Management Division is composed of 15 Government employees
and 17 contractor employees. Of the 17 contractor employees, 9 are from Chenega
Advanced Solutions and Engineering, 3 are from Jacobs Technology Incorporated, and
5 are from CACI International, Incorporated.

SOFSA allowed contractors to approve contractual documents that defined requirements,
which is prohibited by FAR 7.503. In 3 of the 46 task orders, valued at approximately
$18 million, we found that contractors working for SOFSA signed contractual documents
as a SOFSA representative. For example, a SOFSA contractor signed the contractor
deliverable requirements checklist, which describes the task order’s deliverables and due
dates. Therefore, the contractor certified that the deliverables described in the document
were correct and in accordance with requirements of the tasking from SOFSA. SOFSA
attached the contractor deliverable requirements checklist to the task order modification
and referred to it in the description of the task order changes.

SOFSA’s Customer Contracting Personnel
SOFSA contracting personnel allowed contractors working for their customers to perform
inherently governmental functions. We found 14 examples of this, which affected
10 task orders, valued at approximately $80 million. Specifically, we found:

   x   one instance where a contractor approved overtime for a task order;
   x   one instance where a contractor approved the closure of a task order and certified
       that all deliverables had been completed under the task order;
   x   four instances where contractors requested a cost estimate for supplies or
       services, which was later made into a task order;
   x   four instances where a contractor instructed that additional supplies or services be
       added to a task order;
   x   two instances where a contractor directed the use of excess funds to acquire
       additional supplies or services,
   x   one instance where a contractor directed the removal of a labor position from a
       task order so that the customer could use the additional funding to fund another
       task order; and
   x   one instance where a contractor directed that excess funds be returned to the
       customer.

In these examples, we found minimal evidence of Government oversight. The only
evidence we have that a Government employee working for the customer was aware of a
request is an e-mail chain that included the Government employee for 6 of the
14 instances, for the other 8 instances, we found no evidence that a Government
employee was included. We reviewed the contracting files for the task orders and did not
find evidence that the Government employee confirmed the request or that SOFSA
contracting personnel verified that a Government employee initiated the requests.




                                            10
Contractor Identification
In the inherently governmental examples cited in the previous paragraph, the SOFSA
contractors and customer contractors did not identify themselves as contractors as
required by the FAR 37.114. We informed the Chief, SOFSA Business Management
Division of the inherently governmental issues we found, including the lack of contractor
identification. The Chief, SOFSA Business Management Division sent an e-mail to
SOFSA contractors stating that they need to identify themselves in their signature block,
and their e-mail should indicate that they are a contractor. Although SOFSA personnel
took some corrective action, they did not fully address all of the issues. The Chief,
SOFSA Business Management Division stated that SOFSA does not have an internal
policy on inherently governmental functions but SOFSA personnel follow the FAR. It is
apparent from the examples and the e-mail to the contractors that they are not fully aware
of all the limitations on contractors performing inherently governmental functions.

For example, SOFSA did not have adequate internal control policies to ensure that their
contractors did not approve contractual documentation. In addition, SOFSA did not have
standard operating procedures to ensure that their personnel did not accept direction from
customer contractors. SOFSA employees and customers violated the FAR by allowing
contractors to perform actions prohibited by FAR 7.503.

Use of DoD Civilians
Section 324 of Public Law 110-181, “National Defense Authorization Act for Fiscal Year
2008,” added section 2463 to title 10, United States Code (10 U.S.C. 2463). Section 324
of Public Law 110-181 states that the Under Secretary of Defense for Personnel and
Readiness will devise and implement guidelines and procedures to ensure that
consideration is given to using, on a regular basis, DoD civilian employees to perform
functions that are performed by contractors that could be performed by DoD employees.
The guidelines and procedures provide for special consideration to be given to using DoD
civilian employees to perform any function that is a function closely associated with the
performance of an inherently governmental function. In accordance with Section 324 of
Public Law 110-181, the Deputy Secretary of Defense issued guidelines and procedures
on in-sourcing new and contracted functions on April 4, 2008 (see Appendix C). DoD
Components can use DoD civilian employees to perform new functions or functions
performed by a contractor if an economic analysis shows that DoD civilian employees
are the low-cost provider, or if the DoD Component has determined that the function
under review is inherently governmental or exempt from private sector performance.

Conclusion
We found 14 examples in 10 task orders, valued at approximately $80 million, of
contractors working for SOFSA customers performing inherently governmental
functions. We also found 3 of the 46 task orders, valued at approximately $18 million,
where SOFSA contractors signed contractual documents as a Government representative.
However, 2 of these 3 task orders overlapped with the other 10 task orders because these
2 task orders contained inherently governmental problems from SOFSA customer
contractors and SOFSA contractors. The remaining task order valued at approximately


                                            11
$2 million was not included in the total for the 10 task orders. As a result, we found
inherently governmental problems in 11 task orders valued at approximately $82 million.

Because USSOCOM and SOFSA contractors are performing inherently governmental
functions, the Commander, USSOCOM should evaluate the functions of the contractors
working for SOFSA and USSOCOM to ensure that they evaluate their contractor support
needs in accordance with Section 324 of Public Law 110-181 and the implementing
guidance provided by the Deputy Secretary of Defense.3

Management Comments on the Finding and Our
Response
Management Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Commander, USSOCOM, partially agreed with the finding. He stated that SOFSA has
implemented an internal policy that:
    x directs all SOFSA support contractors to identify themselves as contractors in all
        written and electronic communications, and in situations where their contractor
        status is not obvious;
    x states SOFSA support contractors may not sign or approve contractual
        documentation, including any that define requirements;
    x prohibits SOFSA Business Management Division personnel from accepting
        directions from contractors working for SOFSA customers.
The Director also stated that SOFSA will issue a revision of the Business Management
Division Standard Operating Procedure by June 1, 2009, that prohibits the SOFSA
Business Management personnel from accepting direction from contractors working for
SOFSA customers. The Director, Center for Special Operations Acquisition and
Logistics specified that the Director, SOFSA is preparing a memorandum for their
customers reminding them that his staff will only accept contractual direction and
documentation from, and signed by, Government employees.

However, the Director disagreed that the Commander, USSOCOM did not ensure that
DoD civilians perform inherently governmental functions. The Director stated that the
Commander, USSOCOM did consider using DoD civilians to perform inherently
governmental functions at SOFSA and within USSOCOM Headquarters. The Director
stated that the Manpower Requirements Branch of United States Army Special
Operations Command, which includes the SOFSA Business Management Division,
completed an Inherently Governmental Commercial Activities review in December 2008.
He added that the Inherently Governmental Commercial Activities review fully meets the
intent of DoD Instruction 1100.22, “Guidance for Determining Work Force Mix.” He
further stated that, the Manpower Requirements Division of USSOCOM Headquarters,



3
  Appendix B describes another customer working on the SOFSA contracts performing inherently
governmental functions. This customer works for the Army Program Executive Office, Aviation, which is
out of the scope of the USSOCOM audit.

                                                 12
which includes the Center for Special Operations Acquisition and Logistics, also
completed an Inherently Governmental Commercial Activities review in May 2008.

Our Response
We agree with SOFSA steps to implement policies and procedures to enforce FAR
requirements regarding inherently governmental functions. The Commander,
USSOCOM has taken the appropriate steps to ensure compliance with DoD Instruction
1100.22. The Commander, USSOCOM should continue to review USSOCOM’s
workforce mix regularly to prevent the types of inherently governmental violations
discussed in the finding. We revised Finding B based on the Directors comments in order
to provide more balance to the report and acknowledge the efforts of the Commander,
USSOCOM.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commander, United States Special Operations
Command:

       a. Evaluate the Special Operation Forces Support Activity Business
Management Division to determine what positions need to be Government positions
because of their inherently governmental functions or lower cost in accordance with
Section 324 of Public Law 110-181, “National Defense Authorization Act for Fiscal
Year 2008.”

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Commander USSOCOM, disagreed and stated that USSOCOM met the intent of the
recommendation prior to our issuance of the draft audit report. The Manpower
Requirements Branch of United States Army Special Operations Command, which
includes the SOFSA Business Management Division, completed an Inherently
Governmental Commercial Activities review in December 2008. The Director stated that
this Inherently Governmental Commercial Activities review meets the intent of DoD
Instruction 1100.22. The Director stated that this instruction is the primary consideration
cited in the Under Secretary of Defense (Personnel and Readiness) Guidelines and
Procedures for Implementation of 10 U.S.C. 2463. The Director, Center for Special
Operations Acquisition and Logistics further stated that a separate manpower survey of
the SOFSA Business Management Division completed in April 2008 justified an increase
in the number of Government contracting billets authorized.

Finally, the Director, Center for Special Operations Acquisition and Logistics indicated
that the Special Operations Federal Acquisition Regulation Supplement Subpart 5607.5
was revised in April 2008 to provide guidance pertaining to inherently governmental
functions. Subpart 5607.5 states that contracting officers will ensure that each
contracting requirement for services is accompanied by a written determination from the


                                            13
requiring activity that none of the functions contained in the requirement are inherently
governmental, based on FAR 7.503.

Our Response
USSOCOM did not provide any evidence of corrective action prior to the issuance of our
draft report. However, the Director, Center for Special Operations Acquisition and
Logistics comments were responsive. Although the Director disagreed with
Recommendation B.1.a., actions taken by the Manpower Requirements Branch of United
States Army Special Operations Command to evaluate SOFSA Business Management
Division manpower needs for inherently governmental functions satisfy the intent of the
recommendation.

      b. Evaluate the Special Operations Acquisition and Logistics Center to
determine what positions need to be Government positions due to their inherently
governmental functions or lower cost in accordance with Section 324 of Public Law
110-181, “National Defense Authorization Act for Fiscal Year 2008.”

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Commander USSOCOM, disagreed and stated that USSOCOM took action on the
recommendation prior to our issuance of the draft audit report. The Manpower
Requirements Division of USSOCOM Headquarters, which includes the Special
Operations Acquisition and Logistics Center, completed an Inherently Governmental
Commercial Activities review in May 2008. The Director, Center for Special Operations
Acquisition and Logistics stated that the Inherently Governmental Commercial Activities
review fully meets the intent of DoD Instruction 1100.22. The Director stated that this
instruction is the primary consideration cited in the Under Secretary of Defense
(Personnel and Readiness) Guidelines and Procedures for Implementation of 10 U.S.C.
2463. The Director stated that the Manpower Requirements Division conducts an
analysis every other year of commercial activities of USSOCOM’s Joint Table of
Distribution. He added that at the request of the Joint Staff, USSOCOM Headquarters is
currently in the process of updating the Inherently Governmental Commercial Activities
review for FY 2009.

Finally, the Director, Center for Special Operations Acquisition and Logistics stated that
USSOCOM Headquarters Contracting Offices received training on inherently
governmental functions in October 2008, and the Component contracting offices received
similar training in March and April 2009.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
responsive. Although USSOCOM disagreed with recommendation B.1.b., actions taken
by USSOCOM Headquarters, Manpower Requirements Division to evaluate the Special
Operations Acquisition and Logistics Center manpower needs for inherently
governmental functions in 2008 and 2009 satisfy the intent of the recommendation.


                                            14
B.2. We recommend that the Director, Special Operations Forces Support Activity:

       a. Develop internal controls to ensure that Special Operation Forces Support
Activity Business Management Division contractors and Government personnel
follow all elements of the Federal Acquisition Regulation regarding inherently
governmental activities.

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for
Director, SOFSA agreed and stated that SOFSA implemented an internal policy that
directs all SOFSA support contractors to clearly identify themselves as contractors in all
written and electronic correspondence, while attending meetings, in telephone
conversations, and while working in other situations where their contractor status is not
obvious. He added that the policy also specifically states that SOFSA support contractors
are not authorized to sign or approve contractual documentation including any that define
requirements.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
partially responsive. While SOFSA officials implemented policy to prevent future
inherently governmental issues, the Director did not describe the efforts SOFSA will
implement to ensure that contractors comply with this policy. Communicating the FAR
requirements to contractors is only one part of the internal controls needed. SOFSA
officials should test these controls to oversee their contractors’ compliance with the
issued guidance. Therefore, we request that the Director, SOFSA provide comments in
response to the final report describing how SOFSA personnel will verify their
contractors’ compliance with FAR requirements regarding inherently governmental
functions. We also request that the Director, SOFSA provide a copy of their internal
policy with evidence of communication of the policy to SOFSA contractors.

      b. Develop standard operating procedures to ensure that the Special
Operation Forces Support Activity Business Management Division contracting
personnel do not accept direction from customers that are contractors.

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for
Director, SOFSA agreed. He stated that the internal policy discussed in the SOFSA
response to Recommendation B.2.a. also includes a directive prohibiting SOFSA
personnel from accepting direction from contractors working for SOFSA customers.
Further, he added that SOFSA officials drafted a revision to the SOFSA Business
Management Division Standard Operating Procedure directing Business Management
Division staff not to accept direction from contractors working for SOFSA customers.
According to the Director, Center for Special Operations Acquisition and Logistics, the
standard operating procedure states that customer direction can only be accepted from a

                                           15
Government employee. The Director, Center for Special Operations Acquisition and
Logistics indicated that the Director, SOFSA is also preparing a memorandum for all
SOFSA customers reminding them that SOFSA staff will only accept contractual
direction and documentation from and signed by Government employees. These actions
will be completed by June 1, 2009.

Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
responsive. We request that the Director, SOFSA provide the revised standard operating
procedures and the memorandum to the DoD Office of Inspector General by, June 15,
2009.




                                          16
Finding C. Potential Antideficiency Act
Violation
The Technology Applications Program Office (TAPO) did not comply with
appropriations laws and regulations when funding task order USZA22-03-C-0056-2237
because TAPO funded $63.6 million of the task order with procurement funds rather than
research, development, test, and evaluation (RDT&E) funds. This potential violation of
the Purpose Statute (section 1301, title 31, United States Code [31 U.S.C. 1301]) and
DoD Regulation 7000.14-R, “DoD Financial Management Regulation (FMR),” volume
14, chapter 3, may have caused a violation of section 1341, title 31, United States Code
(31 U.S.C. 1341(a)(1)(A)).

Title 31 of the United States Code
Title 31 of the United States Code contains a number of sections that together are referred
to as the Antideficiency Act (ADA). The purpose of the ADA is to enforce the
constitutional powers of Congress for the purpose, time, and amount of budgetary
expenditures made by the Federal Government. We found a potential Purpose Statute
violation (31. U.S.C. 1301). The statute states “appropriations shall be applied only to
the objectives for which the appropriations were made except as otherwise provided by
law.” A violation of the Purpose Statute may cause an ADA violation, 31 U.S.C.
1341(a)(1)(A), when the correct funds were not continuously available.

Financial Management Regulation
FMR volume 2a, chapter 1, “RDT&E Appropriations,” states that:

               Research, Development, Test, and Evaluation Funds will finance
               research, development, test and evaluation efforts performed by
               contractors and government installations, including procurement of end
               items, weapons, equipment, components, materials and services
               required for development of equipment, material, or computer
               application software.

In addition, the FMR, volume 2a, chapter 1, “Related Appropriations,” states that:

               Equipment and material approved for production and intended for
               operational use or inventory upon delivery will be funded in the
               Procurement appropriations. Product improvement within the current
               performance envelope on systems in production will be funded in the
               procurement appropriations as long as no development or operational
               tests by an independent operation test agency are required.

FMR volume 2a, chapter 1, “ Product Improvement,” states that:

               Product improvement of major end items and major components of
               major end items currently in production or in the operational inventory,
               is subject to the redesign of an item to increase the current performance




                                                 17
               envelope, including related development, test and evaluation effort, will
               be financed in RDT&E.

Finally, the FMR, volume 2a, chapter 1, states that “when, after consideration of the
following criteria, there is doubt as to the proper assignment of costs between
appropriations, the issue should be resolved in favor of using RDT&E funding.”

Task Order USZA22-03-C-0056-2237
SOFSA awarded task order USZA22-03-C-0056-2237 on February 24, 2005, for an
initial value of more than $30.4 million to L3 Communications Integrated Systems. As
of December 2008, SOFSA modified the task order seven times to increase the cost to
$63.6 million. According to the statement of work, the purpose of the task order was to
modify one government-furnished UH-60M aircraft, a prototype, into the Special
Operations Aviation MH-60M aircraft and provide special instructions to the
Government for the purposes of manufacturing the 60 subsequent MH-60M aircraft.
TAPO funded the entire $63.6 million with procurement funds.

TAPO Use of Procurement Funding
TAPO incorrectly funded task order USZA22-03-C-0056-2237 with procurement funds,
when it should have funded the task order with RDT&E funds. The task order increased
the performance envelope of a major end item already in production and required the
developmental testing of the new prototype.




                              UH-60M Black Hawk Helicopter

The FMR states that funding for product improvement to increase the current
performance envelope of a major end item currently in production should be RDT&E. In
addition, the FMR states that procurement funds are acceptable only if the product
improvement is within the performance envelope. Task order USZA22-03-C-0056-2237
modified the UH-60M Black Hawk, a major end item already in production, into a
Special Operations Aviation MH-60M Black Hawk helicopter. The Testing Evaluation
Program Plan stated that the MH-60M is an upgrade to the Army’s UH-60M utility
aircraft. In addition, the MH-60M program is expanding the aircraft performance
envelope by adding Special Operations Forces engines to the aircraft and a composite tail
cone.


                                                 18
The FMR states that procurement funds are acceptable only if the project does not require
developmental or operational testing by an independent organization. In a legal review,
requested by the SOFSA contracting office in April 2007, the USSOCOM Chief,
Acquisition Law questioned the use of procurement funds for the task order. He stated
that RDT&E money is required because the first prototype requires developmental and
operational testing. However, in an e-mail dated May 2007, the Chief, Acquisition Law
stated that he would concur with the task order if SOFSA removed the mention of
developmental and operational testing in the statement of work.

In response, the United States Army Program Executive Officer, Rotary Wing issued a
memorandum in May 2007 regarding the statement of work for the UH-60M/MH-60M
prototype conversion. Based on the recommendation of the USSOCOM Chief,
Acquisition Law; the memorandum directed TAPO to replace the phrases
“developmental testing” and “operational testing” with “integration and qualification
testing” and “user acceptance and certification.”

SOFSA subsequently modified the task order to include a statement of work that
removed the mention of developmental and operational testing. Removing
developmental and operational testing from the statement of work does not negate that
SOFSA is performing developmental testing for this task order.

SOFSA stated that task order USZA22-03-C-0056-2237 is not used for performing
developmental and operational testing; and therefore, procurement funding is appropriate.
TAPO justified the use of procurement funds by stating that the helicopter is a production
model aircraft, and the modifications are components from currently operating
helicopters. In addition to this task order for one prototype, SOFSA issued a task order
for production of two MH-60M aircraft. If the MH-60M was a production model aircraft,
then a prototype would not be necessary. TAPO then justified the use of procurement
funding by stating that Congress authorized the funding. However, TAPO could not
provide sufficient documentation to demonstrate this or provide another explanation for
why procurement funding was appropriate.

Summary of Potential ADA
The use of procurement funds is not appropriate for task order USZA22-03-C-0056-2237
because the program is performing independent developmental testing and expanding the
aircraft envelope. As a result, TAPO created a potential Purpose Statute violation by
using procurement funding when RDT&E funding is required and may have caused a
violation of 31 U.S.C. 1341 (a)(1)(A), a section of which is commonly referred to as the
ADA.




                                           19
Management Comments on the Finding and Our
Response
Management Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Commander, USSOCOM, disagreed with Finding C, though he agreed with
Recommendations C.1. and C.2. The Director stated that the Comptroller, USSOCOM
formed a team to conduct a preliminary investigation. The Director also stated that until
the Comptroller, USSOCOM completes the investigation; it is premature to state that
TAPO did not comply with appropriations laws and regulations when funding task order
USZA22-03-C-0056-2237.

Our Response
Though the Director, Center for Special Operations Acquisition and Logistics disagreed
with the finding, he did not provide specific reasons. Therefore, we did not make
changes to Finding C.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Comptroller, United States Special Operations
Command:

       1. Initiate a preliminary review of the potential Antideficiency Act violation
within 10 days of this report to determine whether a violation occurred as required
by DoD Regulation 7000.14-R, “Financial Management Regulation (FMR),” volume
14, chapter 3.

      2. Complete the preliminary review within 90 days as required by DoD
Regulation 7000.14-R, “DoD Financial Management Regulation (FMR),” and
provide the results of the preliminary investigation to the DoD Office of Inspector
General.

Director, Center for Special Operations Acquisition and
Logistics Comments
The Director, Center for Special Operations Acquisition and Logistics, responding for the
Comptroller, USSOCOM agreed with Recommendations C.1 and C.2. The Director,
stated that the Comptroller, USSOCOM started a preliminary review on March 6, 2009,
to check all business transactions and accounting records to determine whether a potential
violation exists. The Director stated that USSOCOM reported the information related to
this potential Antideficiency Act violation to the Office of the Under Secretary of
Defense (Comptroller) Deputy Comptroller. The Director also stated that in accordance
with the FMR, the Comptroller, USSOCOM will complete the preliminary review of the
potential Antideficiency Act violation within 90 days and provide a copy to the Office of
the Under Secretary of Defense (Comptroller) Deputy Comptroller.


                                           20
Our Response
The Director, Center for Special Operations Acquisition and Logistics comments were
responsive. The Comptroller, USSOCOM should provide the preliminary review report
to the DoD Office of Inspector General.




                                         21
Appendix A. Scope and Methodology
We conducted this performance audit from July 2008 to February 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Section 842 of Public Law 110-181 requires audits to be performed to identify fraud,
waste, and abuse in DoD contracts associated with the logistical support of the wars in
Iraq and Afghanistan. The DoD Comprehensive Audit Plan for support of Coalition
Forces in Southwest Asia included this DoD Office of the Inspector General audit of
USSOCOM to support the public law requirements.

We reviewed Federal and DoD criteria regarding quality assurance and surveillance to
evaluate whether the USSOCOM logistic support contracts complied with the criteria.
We conducted extensive research of Federal and DoD criteria relating to task order
QASP design and implementation requirements, and COR training and experience
requirements. The specific criteria we reviewed included DoD directives, instructions,
and publications; the FAR; the DFARS; the USSOCOM Federal Acquisition Regulation
Supplement, Chairman of the Joint Chiefs of Staff Instructions, the overall contracts,
Government Auditing Standards, the United States Code.

We judgmentally selected a sample of 46 task orders from contracts USZA22-03-C-0056
and USZA22-03-D-0006. Our sample of 46 task orders made up 30 percent of the
overall obligated value of all task orders issued under the contracts. We judgmentally
chose our task order sample from all the task orders by ranking them in three ways: the
largest dollar value, the largest change in dollar value, and the largest percentage of
change in dollar value. We also excluded any task orders from our sample that were
completed before 2006 and that had a current contract value of less than $1 million, or
were reviewed during a prior audit.

We conducted this audit at SOFSA Headquarters in Blue Grass Station, Lexington,
Kentucky. Specifically, we visited and interviewed SOFSA personnel including the
SOFSA Director, the SOFSA Deputy Director, the Chief of SOFSA Business
Management Division, the SOFSA COR, the SOFSA Program Analyst in charge of
Quality Assurance, and the SOFSA Information Technology Systems Engineer. During
our trip to Lexington, we also met with a Defense Contract Management Agency
administrative contracting officer and Defense Contract Audit Agency auditors. In
addition, we met with a representative from the Offices of the Deputy Under Secretary of
Defense for Logistics and Materiel Readiness.

The original methodology for the project consisted of four areas for the task orders under
contracts USZA22-03-C-0056 and USZA22-03-D-0006. The selected areas were QASP,


                                            22
COR, Surveillance, and Acceptance. Our main purpose for evaluating these areas was to
determine if the Government received what it paid for. However, during the site visit to
the SOFSA headquarters, we realized SOFSA had not created a QASP or designated a
COR for the task orders under evaluation. Therefore, we restructured the project
methodology to include these attributes in our review. During the course of this work,
we identified instances where SOFSA allowed contracted employees to perform
inherently governmental functions and identified one task order that potentially violates
the ADA. We also reviewed documentation from project officer files for each task order
in our sample, including the original task orders, modifications, statements of work,
requirements documents, funding documents, and emails among others. We eliminated
the planned Surveillance and Acceptance audit work.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System - Next
Generation and Standard Procurement System to help choose our judgmental sample of
task orders for the audit. We determined that the information was computer-processed
data. However, we relied on the data contained in the contracting files to support our
findings. Therefore, we did not perform a formal reliability assessment of the
computer-processed data.

Prior Coverage
During the last five years, the DoD Inspector General (IG) has issued one report
discussing the logistics support contracts at USSOCOM. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2007-100, “Contract for Logistics Support Services for Special
Operations Forces,” May 18, 2007.




                                           23
Appendix B. Other Matters of Interest
Contract Type
FAR Subpart 16.3, “Cost-Reimbursement Contracts,” states that cost-reimbursement
contracts are suitable for use only when uncertainties involved in contract performance
do not permit costs to be estimated with sufficient accuracy to use any type of fixed-price
contract. FAR Subpart 16.4, “Incentive Contracts,” states that a cost-plus-award-fee
contract will not be awarded unless the contract amount, performance period, and
expected benefits are sufficient to warrant the additional administrative effort and cost
involved. In addition, FAR Subpart 16.2, “Fixed-Price Contracts,” states that a firm-
fixed-price contract provides a price that is not subject to any adjustment on the basis of
the contractor’s cost experience in performing the contract and places upon the contractor
maximum risk and full responsibility for all costs and resulting profit or loss.

While the basic indefinite-delivery, indefinite-quantity contracts allow the task orders
issued under them to be either firm-fixed-price or cost-plus-award-fee type contracts,
none of the 46 task orders in our sample were firm-fixed-price. However, we identified
6 task orders out of the 46 that should have been issued as firm-fixed-price contracts
rather than cost-plus-award-fee contracts. For example, one of the task orders was issued
for the purchase, packaging, and shipping of Government off-the-shelf equipment. The
cost of purchasing, packaging, and shipping Government off-the-shelf equipment can be
estimated with sufficient accuracy to provide a price that is not subject to any adjustment
on the basis of contractor’s cost experience. Therefore, SOFSA did not follow the FAR
in determining the appropriate contract type to use for this task order. The SOFSA chief
contracting officer stated that most of the task orders were issued as cost-plus-award-fee
because the contractor's accounting system for firm-fixed-price did not meet Defense
Contract Audit Agency standards. However, a Defense Contract Audit Agency report
found the L3 Communications Integrated Systems accounting system to be adequate for
2003. As a result, SOFSA has placed the contracting risk solely on the Government and
may be paying more than necessary for the work performed on the cost-plus-award-fee
type contracts.

Other Contractors Performing Inherently Governmental
Functions
We found a SOFSA customer contractor working on the SOFSA contracts in the Apache
Attack Helicopter Program Management Office who performed inherently governmental
functions. The Apache Attack Helicopter Program Management Office is part of the
Army Program Executive Office, Aviation. Although we did not review the Program
Executive Office, Aviation, we determined that the Program Executive Office, Aviation
should evaluate the inherently governmental functions performed in the Apache Attack
Helicopter Program Management Office for contracts USZA22-03-C-0056 and
USZA22-03-D-0006. The Program Executive Office, Aviation should do this to ensure
that the Program Executive Office, Aviation complies with Section 324 of Public Law
110-181 and the implementing guidance provided by the Deputy Secretary of Defense.


                                            24
See Finding B for more information on inherently governmental functions and Section
324 of Public Law 110-181.




                                         25
Appendix C. DoD Section 324 Guidance




                   26
27
28
29
30
31
32
33
34
35
36
US Special Operations Command Comments




                 Click to




                             37
Click to add JPEG file




               38
Click to add JPEG file




               39
                           Final Report
                            Reference




                         Page 10




Click to add JPEG file




               40
                           Final Report
                            Reference




                         Deleted
                         Page 10




Click to add JPEG file




               41
                           Final Report
                            Reference




                         Page 18




Click to add JPEG file   Revised
                         Page 7




               42
Click to add JPEG file




               43
Click to add JPEG file




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
